      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                        Washington, D.C. 20201




November 10, 2010

TO:           Yvette Sanchez Fuentes
              Director, Office of Head Start
              Administration for Children and Families


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of the District of Columbia Department of Parks and Recreation’s
              Compliance With Health and Safety Regulations for Head Start Programs
              (A-03-09-00363)


Attached, for your information, is an advance copy of our final report on the District of
Columbia Department of Parks and Recreation’s (DC Parks) compliance with health and safety
regulations for Head Start programs. DC Parks was formerly a delegate agency for the United
Planning Organization (UPO). In September 2009, DC Parks informed UPO that it no longer
would operate childcare centers. We will issue this report to UPO within 5 business days. The
Administration for Children and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at (215) 861-4470 or
through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number A-03-09-00363.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                         Office of Audit Services, Region III
                                                                         Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499
November 16, 2010

Report Number: A-03-09-00363

Mr. Dana M. Jones
Chief Executive Officer
United Planning Organization
301 Rhode Island Avenue, NW
Washington, DC 20001

Dear Mr. Jones:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the District of Columbia Department of Parks and
Recreation’s Compliance With Health and Safety Regulations for Head Start Programs. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Leonard Piccari, Audit Manager, at (215) 861-4493 or through email at
Leonard.Piccari@oig.hhs.gov. Please refer to report number A-03-09-00363 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Dana M. Jones


Direct Reply to HHS Action Official:

Mr. David Lett
Regional Administrator
Administration for Children and Families, Region III
U.S. Department of Health & Human Services
Public Ledger Building, Suite 864
150 South Independence Mall West
Philadelphia, PA 19106
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




          REVIEW OF THE
      DISTRICT OF COLUMBIA
    DEPARTMENT OF PARKS AND
  RECREATION’S COMPLIANCE WITH
HEALTH AND SAFETY REGULATIONS FOR
      HEAD START PROGRAMS




                         Daniel R. Levinson
                          Inspector General

                          November 2010
                          A-03-09-00363
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

The District of Columbia (the District) Department of Parks and Recreation (the delegate
Grantee) was a Head Start delegate agency for the United Planning Organization (UPO) for
FYs 1990 through 2009. Under this arrangement, the delegate Grantee received approximately
$950,000 each year in Federal funding through UPO to provide services to 154 children. The
delegate Grantee provided services to Head Start eligible children through a variety of programs
at 10 facilities in the District. In September 2009, the delegate Grantee informed UPO that it no
longer would operate childcare centers. After the delegate Grantee left the Head Start program,
UPO closed 4 of the 10 facilities, and it later closed a fifth facility. However, UPO’s Federal
grant award requires that it continue to provide services to the 154 Head Start children whom the
delegate Grantee had served.

OBJECTIVE

Our objective was to determine whether the delegate Grantee complied with applicable Federal
and State requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The delegate Grantee did not fully comply with Federal and State requirements on ensuring the
health and safety of children in its care. Specifically, as of July 2009:

   •   The files on all 43 of the delegate Grantee’s employees (1) lacked evidence of a
       completed child protection register check, (2) lacked evidence of compliance with 1 or
       more other Federal or State preemployment requirements, and (3) were not maintained on
       the facility premises.

   •   The delegate Grantee’s 15 drivers did not meet all Federal driver-specific preemployment
       and training requirements.

   •   The delegate Grantee’s 10 childcare facilities did not meet all Federal Head Start and
       State requirements on protecting children from unsafe materials and equipment.

   •   The delegate Grantee’s 10 childcare facilities did not provide a fully secure environment
       for the children in their care.



                                                i
These deficiencies occurred because the delegate Grantee did not have adequate procedures or did
not consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The delegate Grantee’s failure to comply with these
requirements jeopardized the health and safety of children in its care.

RECOMMENDATIONS

We recommend that UPO develop and consistently follow procedures for the five remaining
facilities to ensure that:

   •   all employee files contain evidence of checks of the child protection register and
       evidence of completed background checks, no applicants are hired if they have been
       convicted of an offense listed in District regulations, and each facility maintains
       background check documentation on each employee on the premises;

   •   all drivers have met Federal driver-specific requirements;

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       all necessary repairs are addressed in a timely manner, all unsafe conditions are
       addressed, and all facilities meet State licensing requirements; and

   •   all facilities are secure.

UNITED PLANNING ORGANIZATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, UPO concurred with our recommendations and described its
actions to address the deficiencies that we identified. However, UPO stated that it did not use
the Edgewood facility playground shown in Photographs 8 and 9 in Appendix A. UPO’s
comments are included as Appendix C. We have excluded the attachments accompanying
UPO’s comments because of their volume.

During our visit to the Edgewood facility, staff members told us that children used the
playground in question. We maintain that the finding and recommendation related to this issue
are valid.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION..................................................................................................................1

          BACKGROUND ........................................................................................................1
              Federal Head Start Program .............................................................................1
              Federal and State Regulations for Head Start Grantees ...................................1
              District of Columbia Department of Parks and Recreation .............................1
              Office of Inspector General Audits ..................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................2
               Objective ..........................................................................................................2
               Scope ...............................................................................................................2
               Methodology ....................................................................................................2

FINDINGS AND RECOMMENDATIONS ........................................................................3

          BACKGROUND CHECKS.........................................................................................4
              Federal and State Requirements.......................................................................4
              Delegate Grantee’s Compliance With Federal and State Preemployment
               Requirements ................................................................................................4

          HEAD START DRIVER-SPECIFIC REQUIREMENTS ..........................................5
               Federal Requirements ......................................................................................5
               Delegate Grantee’s Compliance With Driver-Specific Requirements ............6

          MATERIAL AND EQUIPMENT SAFETY ...............................................................7
              Federal and State Safety Requirements ...........................................................7
              Delegate Grantee’s Compliance With Material and Equipment Safety
                Requirements ................................................................................................9

          FACILITY SECURITY .............................................................................................13
               Federal and State Requirements.....................................................................13
               Delegate Grantee’s Compliance With Facility Security Requirements .........13

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES ..............15

          RECOMMENDATIONS ..........................................................................................15

          UNITED PLANNING ORGANIZATION COMMENTS .......................................16

          OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................16




                                                                    iii
APPENDIXES

    A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
        REQUIREMENTS

    B: LACK OF COMPLIANCE WITH FACILITY SECURITY REQUIREMENTS

    C: UNITED PLANNING ORGANIZATION COMMENTS




                               iv
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

In the District of Columbia (the District), all child development facilities must be licensed and
must comply with the requirements of Title 29, chapter 3, of the District of Columbia Municipal
Regulations (DCMR). Sections 4-1501.03 and .05 of the District’s Child and Youth, Safety and
Health Omnibus Amendment Act of 2004 (the Act) establish requirements for criminal
background checks.

District of Columbia Department of Parks and Recreation

The District Department of Parks and Recreation (the delegate Grantee) was a Head Start
delegate agency for the United Planning Organization (UPO) for FYs 1990 through 2009. Under
this arrangement, the delegate Grantee received approximately $950,000 each year in Federal
funding through UPO to provide services to 154 children. The delegate Grantee provided
services to Head Start eligible children through a variety of programs at 10 facilities in the



                                                 1
District. In September 2009, the delegate Grantee informed UPO that it no longer would operate
childcare centers. After the delegate Grantee left the Head Start program, UPO closed 4 of the
10 facilities. 1 However, UPO’s Federal grant award requires that it continue to provide services
to the 154 Head Start children whom the delegate Grantee had served.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

We are conducting a separate audit of UPO (A-03-09-00369).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the delegate Grantee complied with applicable Federal
and State requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the delegate Grantee’s employee records and facilities as of July 2009. To
gain an understanding of the delegate Grantee’s operations, we conducted a limited review of the
delegate Grantee’s internal controls as they related to our audit objective.

We performed our fieldwork from June 10 through 19, 2009, at the delegate Grantee’s
administrative office and at its 10 childcare facilities in the District. We also performed
fieldwork at the District’s Department of Human Resources office in July 2009.

Methodology

To accomplish our objective, we:

       •   selected the delegate Grantee based on prior risk analyses and discussions with ACF
           officials;

       •   reviewed Federal and State laws, regulations, and policies related to Federal grant awards
           and the Head Start program;

       •   reviewed the delegate Grantee’s policies and procedures;




1
    In June 2010, UPO closed a fifth facility.



                                                   2
       •   reviewed the District’s Department of Human Resources files on all 43 of the delegate
           Grantee’s Head Start employees, including 20 teachers and 15 drivers; 2

       •   reviewed the delegate Grantee’s licenses and documentation of fire inspections;

       •   visited the delegate Grantee’s 10 childcare facilities; and

       •   discussed our preliminary findings with the delegate Grantee, UPO, and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The delegate Grantee did not fully comply with Federal and State requirements on ensuring the
health and safety of children in its care. Specifically, as of July 2009:

       •   The files on all 43 of the delegate Grantee’s employees (1) lacked evidence of a
           completed child protection register check, (2) lacked evidence of compliance with 1 or
           more other Federal or State preemployment requirements, and (3) were not maintained on
           the facility premises.

       •   The delegate Grantee’s 15 drivers did not meet all Federal driver-specific preemployment
           and training requirements.

       •   The delegate Grantee’s 10 childcare facilities did not meet all Federal Head Start and
           State requirements on protecting children from unsafe materials and equipment.

       •   The delegate Grantee’s 10 childcare facilities did not provide a fully secure environment
           for the children in their care.

These deficiencies occurred because the delegate Grantee did not have adequate procedures or
did not consistently follow procedures that were in place to ensure that it complied with Federal
and State health and safety requirements. The delegate Grantee’s failure to comply with these
requirements jeopardized the health and safety of children in its care.




2
    The 43 employees were partially or fully funded by the Head Start grant award.


                                                           3
BACKGROUND CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

Federal Head Start regulations (45 CFR § 1301.31(b)(2)) state that grantees must require each
current and prospective employee to sign a declaration that lists:

   •   all pending and prior criminal arrests and charges related to child sexual abuse and their
       disposition,

   •   convictions related to other forms of child abuse and neglect, and

   •   all convictions for violent crimes.

In the District, child development facilities must comply with the requirements of “Criminal and
Background History Checks” (29 DCMR § 328). Section 328.1 states that each employee must
satisfactorily complete a criminal background check as required by the Act. Section 328.1(a)
also requires each employee to satisfactorily complete a child protection register check before he
or she may be unconditionally employed. Section 4-1501.05(b)(1) of the Act states that “[a]n
applicant, employee, or volunteer required to apply for a criminal background check under
§ 4-1501.03 shall submit to a criminal background check by means of fingerprint and National
Criminal Information Center checks conducted by the Mayor and the FBI.”

Pursuant to 29 DCMR § 328.1(e), “[t]he Facility shall deny employment to any person who has
been convicted of an offense … which constitutes a bar to employment in an agency that
provides direct services to children … as more fully described in subsection 313.1(e) ….” Such
offenses include, among others, assault; assault with a dangerous weapon; burglary; robbery;
kidnapping; and unlawful distribution or possession of, or possession with intent to distribute, a
controlled substance.

Section 327.1(c) of the DCMR requires each facility to maintain “documentation and results of
criminal and background history checks” on the facility premises in accordance with State
regulations and with all other applicable Federal and State laws and rules.

Delegate Grantee’s Compliance With Federal and State Preemployment Requirements

The delegate Grantee’s files on all 43 employees lacked evidence of compliance with 1 or more
Federal or State preemployment requirements. Specifically:




                                                 4
       •   None of the files on the 43 employees contained evidence of a completed child protection
           register check.

       •   The background checks on six drivers identified convictions for offenses that should have
           disqualified the individuals from employment in jobs working with children. The
           offenses included kidnapping, assault with a deadly weapon, and possession of marijuana
           and cocaine with intent to distribute, with the two most recent convictions occurring in
           2005 and 2001. The declarations of five of the six convicted employees failed to disclose
           their offenses.

       •   The file on one employee hired on August 13, 2001, contained a letter dated March 21,
           2008, from the Department of Human Resources to the employee stating that the
           employee had cleared the criminal background check. However, the file contained no
           documentation from the Mayor or the FBI that showed the background check had been
           completed.

In addition, the background check documentation for all 43 employees was maintained at the
offices of the District Department of Human Resources, not on the facilities’ premises as
required.

By not ensuring that all employees who supervised or had routine unsupervised contact with
children met all Federal and State preemployment requirements, the delegate Grantee potentially
jeopardized the safety of children in its care.

HEAD START DRIVER-SPECIFIC REQUIREMENTS

Federal Requirements

Federal Head Start regulations (45 CFR § 1304.52(k)(1)) require grantees to ensure that each
staff member has an initial health examination that includes screening for tuberculosis and a
periodic reexamination (as recommended by the health care provider or as mandated by State,
tribal, or local laws). The regulations (45 CFR § 1310.16) also require grantees to ensure that
persons who provide transportation services have a valid commercial driver’s license for vehicles
in the same class as those that the driver will operate.

Pursuant to 45 CFR § 1310.16(b), a grantee’s applicant review procedure for drivers must
include, at a minimum, (1) a review of general grantee staff qualifications with additional
disclosure by the applicant of all moving traffic violations, regardless of penalty; 3 (2) a check of
the applicant’s driving record through the appropriate State agency, including a check of the
applicant’s record through the National Driver Register, if available in the State; and (3) a
medical examination by a licensed doctor of medicine or osteopathy, after a conditional offer of
employment and before the applicant begins work, establishing that the individual is physically
able to perform job-related functions with any necessary accommodations. In addition, 45 CFR



3
    The general qualifications for a grantee’s staff are specified in 45 CFR § 1304.52(b).


                                                             5
§ 1310.10(c) states that each agency providing transportation services is responsible for
compliance with the applicable requirements of 45 CFR § 1310.

Federal Head Start regulations (45 CFR § 1310.17(b)) also require that each grantee providing
transportation services ensure that drivers receive a combination of classroom instruction and
behind-the-wheel instruction before transporting children.

OHS’s “Requirements for Head Start Bus Drivers” states that, before finalizing the hiring of a
driver, an agency must ensure that the applicant:

    •   possesses a clean driving record,

    •   passes a criminal background check,

    •   passes a screening for alcohol and drugs,

    •   passes a physical examination and is able to lift 50 pounds,

    •   passes a tuberculosis test, and

    •   has good hearing and at least 20/40 vision with or without glasses. 4

Delegate Grantee’s Compliance With Driver-Specific Requirements

Our review of the delegate Grantee’s files on its 15 drivers found that the delegate Grantee did
not comply with Federal preemployment and training requirements for drivers. Specifically, the
files showed that:

    •   all 15 drivers lacked classroom and behind-the-wheel training, annual refresher training,
        alcohol and drug screening, testing for tuberculosis, and a hearing and vision test;

    •   14 of the 15 drivers lacked a current commercial driver’s license;

    •   13 of the 15 drivers had not received a medical examination; and

    •   12 of the 15 drivers did not have a completed driving record check.

By not ensuring that Head Start drivers had the mandatory training and met other Federal
requirements before transporting children, the delegate Grantee jeopardized the health and safety
of children in its care.




4
 OHS, “Requirements for Head Start Bus Drivers,” Transportation Pathfinder. Available online at
http://eclkc.ohs.acf.hhs.gov/. Accessed on May 19, 2010.


                                                      6
MATERIAL AND EQUIPMENT SAFETY

Federal and State Safety Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities, materials, and equipment. The
regulations (45 CFR § 1304.53(a)) require, among other things, that:

   •   a safety inspection be conducted at least annually to ensure that each facility’s space,
       light, ventilation, heat, and other physical arrangements are consistent with the health,
       safety, and development needs of children;

   •   each facility ensure that paint coatings on interior and exterior premises do not contain
       hazardous quantities of lead;

   •   the center-based environment be free from toxins such as cigarette smoke, lead, and other
       air pollutants, as well as soil and water contaminants;

   •   all medications, including those required for staff and volunteers, be labeled, stored under
       lock and key, refrigerated if necessary, and kept out of the reach of children;

   •   rooms be well lit and provide emergency lighting in the case of power failure;

   •   approved, working fire extinguishers be readily available;

   •   an appropriate number of smoke detectors be installed and tested regularly;

   •   exits be clearly visible and evacuation routes be clearly marked and posted; and

   •   diapering areas be separated from areas used for cooking, eating, or children’s activities.

Furthermore, 45 CFR § 1304.22(f) requires that first aid kits be readily available, well supplied,
restocked, and inventoried at regular intervals.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than the Head Start regulations or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety found in 45 CFR § 1304.53(a).

State regulations (29 DCMR § 302.1) specify that, unless an exception exists, no person may
either directly or indirectly operate a child development facility without first obtaining a license.
State regulations (29 DCMR § 304.1) specify that before applying for a license, each facility
must secure a certificate of occupancy for the premises or equivalent proof that the premises
comply with all applicable Federal and District fire, safety, building, and zoning regulations and



                                                  7
codes. Each application must contain certification that the facility is free from lead-based paint
hazards (29 DCMR § 306.3(k)).

State regulations (29 DCMR § 305) also require that each child development facility undergo an
annual fire safety inspection and obtain certification that the premises conform to all applicable
fire safety and related codes. The certification must be issued by the Department of Fire and
Emergency Medical Services or by the Department of Consumer and Regulatory Affairs upon
each annual application for license renewal.

State regulations (29 DCMR § 363) provide guidelines for the general safety and maintenance of
child daycare facilities. These guidelines specify that, among other things:

   •   all playthings, equipment, materials, and furnishings not have sharp points or rough
       edges;

   •   all appliances, sharp utensils, and other dangerous devices be inaccessible to children at
       all times;

   •   unused electrical outlets that are within the reach of children be fitted with appropriate
       childproof protective receptacle closures (protective closures); and

   •   all cleaning and sanitizing supplies, toxic substances, paints, poisons, aerosol containers,
       and other items bearing warning labels be safely stored and kept inaccessible to children.

State regulations (29 DCMR §§ 366 and 367) provide guidelines for rooftop play spaces and
outdoor playground equipment in enclosed yards on the facility premises. These guidelines
specify that, among other things:

   •   rooftop play spaces be enclosed with a sturdy fence that is at least 6 feet high and
       designed to discourage climbing and

   •   outdoor play spaces on the facility premises be enclosed with a fence or natural barrier
       that is at least 48 inches high, with a space no larger than 3.5 inches between its bottom
       edge and the ground, and designed to discourage climbing.

State regulations (29 DCMR § 367.13) specify that the center director, caregiver, or designated
facility staff at each facility must thoroughly inspect each piece of playground equipment at least
monthly for the following hazards:

   •   visible cracking, bending, warping, rusting, or breaking;

   •   exposed, cracked, or loose cement support footings;

   •   exposed tubing ends that require plugs or cap covers;

   •   accessible sharp edges or points;


                                                 8
   •   protruding bolt ends that require caps or covers;

   •   loose bolts, nuts, or screws that require tightening;

   •   splintered, cracked, or otherwise deteriorating wood; and

   •   exposed hard surfaces, especially under swings and slides.

State regulations (29 DCMR § 369) provide guidelines for emergency preparedness and first
aid. Each facility must obtain and maintain a sufficient quantity of first aid supplies on the
facility premises. The facility must maintain these supplies in a designated location that is
readily available to staff and inaccessible to children.

Delegate Grantee’s Compliance With Material and Equipment Safety Requirements

The delegate Grantee’s childcare facilities did not meet all Federal Head Start and State health
and safety regulations on protecting children. None of the delegate Grantee’s 10 facilities
provided evidence that annual safety inspections had been conducted or that the facilities were
free from lead-based paint hazards. In addition, we noted the following deficiencies at the 10
facilities, and we discussed the deficiencies with the facility managers on duty during our visits.
In some instances, the facility managers took immediate steps to address our concerns.

Atlantic Gardens (visited June 11, 2009; closed June 2010)

   •   The facility had no emergency lighting in the event of a power failure.

   •   A fire extinguisher was last inspected in May 2008.

   •   A power strip accessible to children in a classroom lacked protective closures (Appendix
       A, Photograph 1).

Atlantic Terrace (visited June 11, 2009)

   •   Cleaning and sanitizing supplies with warning labels were stored in an unlocked closet in
       a kitchen accessible to children.

   •   A fire extinguisher and a coffeepot were within reach in a kitchen accessible to children
       (Appendix A, Photograph 2).

   •   Cracks in the walkway to the playground created a tripping hazard.

   •   Plastic railroad ties surrounded the playground equipment, and the walkway to the
       playground had protruding bolts. Both the railroad ties and the bolts created tripping
       hazards (Appendix A, Photograph 3).

   •   Electrical outlets in two classrooms lacked protective closures.


                                                 9
   •   The diapering area was located in an area where children played.

   •   The first aid kit contained expired medications.

   •   A glue trap was under the sink in the children’s bathroom.

   •   Ceiling tiles were water stained (Appendix A, Photograph 4).

   •   The Child Development Facility License issued by the District Department of Health
       expired on May 8, 2009.

   •   The facility did not have a certificate of occupancy.

   •   The fire inspection approval certificate expired on February 22, 2009.

Barry Farms (visited June 10 and 11, 2009; closed September 2009)

   •   Cleaning supplies with warning labels were stored in a cabinet with no door in a kitchen
       accessible to children.

   •   Cracks and gouges on playground equipment and walkways exposed children to possible
       injury.

   •   A rope hanging from a swing area created a choking hazard (Appendix A, Photograph 5).

Benning Parks (visited June 17, 2009)

   •   The facility had no emergency lighting in the event of a power failure.

   •   Two fire extinguishers were last inspected in February 2008 (Appendix A, Photograph 6).

   •   Evacuation routes were not posted.

   •   An electrical outlet accessible to children in a classroom lacked a protective closure.

   •   The first aid kit contained expired medications.

   •   The Child Development Facility License issued by the District Department of Health
       expired on May 14, 2009.

   •   The certificate of occupancy did not include an address.

   •   The fire inspection approval certificate expired on January 15, 2009.




                                                10
Edgewood (visited June 16, 2009)

   •   Cleaning and sanitizing supplies with warning labels were stored within reach under
       sinks in the classrooms and in a kitchen that was accessible to children (Appendix A,
       Photograph 7).

   •   Broken pieces of sharp plastic on playground equipment exposed children to possible
       injury.

   •   Exposed wires and copper tubing on the perimeter of the playground posed tripping
       hazards (Appendix A, Photographs 8 and 9).

   •   Electrical outlets in three classrooms were either covered with tape or lacked protective
       closures.

   •   First aid kits contained expired medications.

   •   Glue traps were under the sink in the kitchen and behind a toilet in the children’s
       bathroom.

Kenilworth Parkside (visited June 16, 2009; closed September 2009)

   •   A 3-foot-long piece of splintered wood on the playground exposed children to possible
       injury.

   •   Sharp metal clamps on playground equipment exposed children to possible injury.

   •   Poison ivy was growing at the bottom of the slide (Appendix A, Photograph 10).

   •   Several electrical outlets were either covered with tape or lacked protective closures.

   •   The diapering area was located in an area where children played.

   •   The first aid kit contained expired medications.

   •   Glue traps were under the sink in the children’s bathroom.

Paradise (visited June 10 and 11, 2009)

   •   Cleaning and sanitizing supplies with warning labels were stored in an unlocked closet
       and under the sink in a kitchen that was accessible to children.

   •   Two of the six emergency lighting fixtures did not work.

   •   Two fire extinguishers were last inspected in February 2008.



                                                11
   •   We observed ants on a table in the hallway and on the baseboards.

   •   A screw protruding from playground equipment exposed children to possible injury.

   •   Several electrical outlets lacked protective closures.

   •   The first aid kit contained expired medications.

   •   Unlocked closets in two classrooms had glue traps; one contained dead roaches
       (Appendix A, Photograph 11).

   •   The fire inspection approval certificate expired on March 20, 2009.

Randall (visited June 12 and 15, 2009)

   •   The facility had no emergency lighting in the event of a power failure.

   •   One classroom did not have a smoke detector.

   •   An unlocked gate led to an area that housed air conditioning equipment. This area was
       easily accessible to children.

   •   Evacuation routes were not posted.

   •   Electrical outlets in both classrooms lacked protective closures.

   •   The certificate of occupancy listed an incorrect address.

Rosedale (visited June 12, 2009; closed September 2009)

   •   The facility had no emergency lighting in the event of a power failure.

   •   One outdoor play area was a balcony enclosed by a 42-inch-high wall. The fall from this
       balcony was about 20 feet onto a concrete surface.

   •   Broken concrete on the balcony play area posed a tripping hazard.

   •   Vents in the brick wall of a building in the courtyard play area were hazardous to
       children. Children could climb on the vents and possibly fall and injure themselves
       (Appendix A, Photograph 12).

   •   Another play area was located near a swimming pool. The fence enclosing the pool had
       an 8-inch-wide opening, allowing children to access the pool (Appendix A, Photographs
       13 and 14).




                                                12
   •   The basketball court was littered with trash and broken glass.

   •   Several electrical outlets lacked protective closures.

   •   The first aid kit contained expired medications.

Watkins (visited June 11, 2009; closed September 2009)

   •   A large knife on a counter was within reach in a kitchen accessible to children (Appendix
       A, Photograph 15).

   •   The facility had no emergency lighting in the event of a power failure.

   •   Two fire extinguishers were last inspected in April 2008.

   •   A power strip lacked protective closures.

   •   The diapering area was located in an area where children played.

   •   The first aid kit contained expired medications.

   •   The certificate of occupancy listed an incorrect address.

By not ensuring that all facilities were kept free from unsafe materials and equipment, the
delegate Grantee jeopardized the health and safety of children in its care.

FACILITY SECURITY

Federal and State Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the security of all Head Start facilities. The regulations (45 CFR § 1304.53(a)(9)) require that
outdoor play areas at center-based programs be arranged so as to prevent any child from leaving
the premises and entering unsafe and unsupervised areas.

State regulations (29 DCMR § 342) require that an outdoor play area be in an enclosed yard on
the facility premises, in a nearby park or playground, or in a rooftop play space that meets State
safety standards. State regulations (29 DCMR § 367) also specify that each facility with an
outdoor play area on the premises enclose the space with a fence or natural barrier that is at least
48 inches high, with a space no larger than 3.5 inches between its bottom edge and the ground,
and designed to discourage climbing.

Delegate Grantee’s Compliance With Facility Security Requirements

The delegate Grantee’s childcare facilities did not meet all Federal Head Start and State facility
security regulations. We noted the following deficiencies at the delegate Grantee’s 10 facilities,


                                                 13
and we discussed the deficiencies with the facility managers on duty during our visits. In some
instances, the facility managers took immediate steps to address our concerns.

Atlantic Gardens (visited June 11, 2009; closed June 2010)

   •   Several areas of the fence enclosing the play area had 6 inches of space between the
       bottom edge and the ground.

Atlantic Terrace (visited June 11, 2009)

   •   Children had to cross a parking lot to reach the play area (Appendix B, Photograph 1).

   •   The play area was not enclosed by a fence, giving children access to the parking lot and a
       wooded area.

Barry Farms (visited June 10 and 11, 2009; closed September 2009)

   •   The play area in front of the facility had an unlocked gate, allowing children to leave the
       premises and unauthorized people to enter the play area. The fence enclosing the play
       area was only 38 inches high.

   •   The play area in back of the facility was not enclosed by a fence, allowing children to
       leave the premises and unauthorized people to enter the play area.

Benning Parks (visited June 17, 2009)

   •   The fence enclosing the play area in front of the facility was only 40 inches high
       (Appendix B, Photograph 2).

   •   Several areas of the fence enclosing the play area had 12 inches of space between the
       bottom edge and the ground.

Edgewood (visited June 16, 2009)

   •   Some of the latches on play area gates were broken, allowing children to enter unsafe and
       unsupervised areas (Appendix B, Photograph 3).

   •   One play area was not enclosed by a fence and was near a stairway that led to a parking
       lot.

   •   Several areas of the fence enclosing another play area had 6 inches of space between the
       bottom edge and the ground. The fence was only 44 inches high.




                                                14
Kenilworth Parkside (visited June 16, 2009; closed September 2009)

   •   The front door of the facility was unlocked, allowing children to leave the facility and
       unauthorized people to enter the facility.

   •   The play area was not enclosed by a fence, allowing children to leave the premises and
       unauthorized people to enter the play area.

Paradise (visited June 10 and 11, 2009)

   •   The play area was not enclosed by a fence, allowing children to leave the premises and
       unauthorized people to enter the play area.

Randall (visited June 12 and 15, 2009)

   •   Several areas of the fence enclosing the play area had 5 inches of space between the
       bottom edge and the ground.

Rosedale (visited June 12, 2009; closed September 2009)

   •   The front door of the facility was left open, allowing children to leave the premises and
       unauthorized people to enter the facility.

   •   The play area in front of the facility was not enclosed by a fence or natural barrier to
       prevent children from wandering into a busy street or unauthorized people from entering
       the play area.

Watkins (visited June 11, 2009; closed September 2009)

   •   The fence enclosing the play area was only 40 inches high.

By not ensuring that all facilities were secure, the delegate Grantee jeopardized the safety of
children in its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the delegate Grantee did not have adequate procedures or did
not consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations. In September 2009, the delegate Grantee informed UPO that
it no longer would operate childcare centers. UPO subsequently closed 5 of the 10 facilities.

RECOMMENDATIONS

We recommend that UPO develop and consistently follow procedures for the five remaining
facilities to ensure that:



                                                15
   •   all employee files contain evidence of checks of the child protection register and
       evidence of completed background checks, no applicants are hired if they have been
       convicted of an offense listed in District regulations, and each facility maintains
       background check documentation on each employee on the premises;

   •   all drivers have met Federal driver-specific requirements;

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       all necessary repairs are addressed in a timely manner, all unsafe conditions are
       addressed, and all facilities meet State licensing requirements; and

   •   all facilities are secure.

UNITED PLANNING ORGANIZATION COMMENTS

In its comments on our draft report, UPO concurred with our recommendations and described its
actions to address the deficiencies that we identified. However, UPO stated that it did not use
the Edgewood facility playground shown in Photographs 8 and 9 in Appendix A. UPO’s
comments are included as Appendix C. We have excluded the attachments accompanying
UPO’s comments because of their volume.

OFFICE OF INSPECTOR GENERAL RESPONSE

During our visit to the Edgewood facility, staff members told us that children used the
playground in question. We maintain that the finding and recommendation related to this issue
are valid.




                                               16
APPENDIXES
                                                                         Page 1 of 8


APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
                    SAFETY REQUIREMENTS




  Photograph 1 – Taken at Atlantic Gardens on 6/11/2009 showing a classroom
  power strip containing two outlets without protective closures.




  Photograph 2 – Taken at Atlantic Terrace on 6/11/2009 showing a fire
  extinguisher and a coffeepot within reach of children.
                                                                        Page 2 of 8




Photograph 3 – Taken at Atlantic Terrace on 6/11/2009 showing railroad ties
and protruding bolts on the walkway to the playground, which created
tripping hazards.




Photograph 4 – Taken at Atlantic Terrace on 6/11/2009 showing water-
stained ceiling tiles.
                                                                      Page 3 of 8




Photograph 5 – Taken at Barry Farms on 6/10/2009 showing a rope hanging
from a swing area, a choking hazard.




Photograph 6 – Taken at Benning Parks on 6/17/2009 showing a past-due fire
extinguisher inspection tag dated 2/2008.
                                                                    Page 4 of 8




Photograph 7 – Taken at Edgewood on 6/16/2009 showing laundry detergent,
a hazardous chemical, in an unlocked cabinet under a classroom sink.




 Photograph 8 – Taken at Edgewood on 6/16/2009 showing exposed copper
tubing on the perimeter of the playground.
                                                                        Page 5 of 8




 Photograph 9 – Taken at Edgewood on 6/16/2009 showing exposed wires on
 the perimeter of the playground.




Photograph 10 – Taken at Kenilworth Parkside on 6/16/2009 showing poison ivy at
the bottom of a slide.
                                                                           Page 6 of 8




Photograph 11 – Taken at Paradise on 6/10/2009 showing a glue trap with dead
roaches in an unlocked classroom closet. (The plexiglass did not have sharp edges.)




Photograph 12 – Taken at Rosedale on 6/12/2009 showing vents in the brick wall of a
building in the courtyard play area. Children could climb on the vents and possibly
fall and injure themselves.
                                                                            Page 7 of 8




     Photograph 13 – Taken at Rosedale on 6/12/2009 showing a large opening in the
     fence enclosing the swimming pool shown in Photograph 15. Children could easily
     fit through this opening and gain access to the pool.




Photograph 14 – Taken at Rosedale on 6/12/2009 showing the enclosed swimming pool
accessible through the opening seen in Photograph 14.
                                                                           Page 8 of 8




Photograph 15 – Taken at Watkins on 6/11/2009 showing a large knife on the kitchen
counter within reach of children.
                                                                            Page 1 of 2


         APPENDIX B: LACK OF COMPLIANCE WITH FACILITY
                    SECURITY REQUIREMENTS




Photograph 1 – Taken at Atlantic Terrace on 6/11/2009 showing that children had to
cross a parking lot to reach an outdoor play area that was not enclosed by a fence.




Photograph 2 – Taken at Benning Parks on 6/17/2009 showing that the fence
enclosing the outdoor play area was 40 inches high rather than the required 48 inches.
                                                                           Page 2 of 2




Photograph 3 – Taken at Edgewood on 6/16/2009 showing a latch on a play area
entrance gate that did not close properly, allowing children to enter unsafe and
unsupervised areas.
                                                                                                                         Page 1 of 11
               APPENDIX C: UNITED PLANNING ORGANIZATION COMMENTS
               UNITED      PLANNING ORGANIZATION 

               _ _ _ _ _ COMMUNITY ACTION AGENCY for WASHINGTON, DC----­




   August 16, 2010



   Mr. Stephen Virbitsky
   Regional Inspector General
   For audit Services
   Office of Audit Services = Region III
   Public Ledger Building, - Suite 316
   150 S. Independence Mall West
   Philadelphia, PA 19106 - 3499                              Ref: Report Number: A-03-09-00363

   Dear Mr. Virbitsky:

   We acknowledge the receipt and review of the above reference report covering health and safety issues
   at childcare facilities that were formerly operated by the District of Columbia Department of Parks and
   Recreation (DCPR). DCPR served as a Delegate Agency of the United Planning Organization (UPO) Head
   Start Program until September 30, 2009. The District elected to no longer provide Head Start Services.
   Some of the classrooms are now under the direct control and operation of UPO.

   In preparing our response we have taken great effort at identifying the issues and locations of the
   problems and provide you with our solution. We need to clearly share that all staff have met the
   Criminal Background Requirements and have been screened by the Child Protection Registry. It should
   be noted that none of the Drivers identified in the report were hired by UPO. Only 15 site based
   employees were hired.

   We have addressed all issues that represent an immediate threat to the health and safety of children.
   Photos of improvements, fire inspections, updates of extinguisher inspections, locked cabinets and
   fences, licenses,etc, have been provided to document our work. Additionally, it should be noted that we
   closed Atlantic Terrance, a site noted in the report as a continuing location.

   The permitting process can be lengthy in the City. Of the existing sites with fence issues, stop gap
   measures have been employed to eliminate the risk. However, new fences will be installed.

   We regret being in this position. We have overhauled our entire administrative structure to make sure
   this never happens again. Not only are all sites subject to random inspections, but monthly a certified
   inspection of physical locations is submitted for review. Our monitoring team has been staffed with
   persons committed to zero tolerance of health and safety matters.

   Your office was sent to investigate complaints that reflected the dis-investment of a governmental unit
   in early care. We were assured that corrections were being made. Unfortunately, executive leadership
   changes were followed by changing priorities and ultimately, the discontinuance of the effort.




                                                              't~"   .. '
301 RHODE ISLAND AVENUE, NW • WASHINGTON, DC 20001-1826         ·,,~:O      202.238.4600 •   FAX 202.588.0270 • INFO@UPO.ORG • WWW.UPO.ORG

                                                          •
                                                                                              Page 2 of 11




We accept our role and responsibility as the Head Start Grantee to assure that all sites meet local and
federal requirements. The attached information and that which will be forwarded later, reflects that
commitment to quality.

Please feel free to contact me if you have questions. I can be reached on 202.238.4692 or at
djones@upo.org. Thanks




cc:    Burma Paige-Stokes
       DHHSprogram Specialist
                                                             Page 3 of 11




                     CONCURRENCE # 1 




• Allemployee files contain evidence of checks of the child
  protection register and evidence of completed background checks,
  no applicants are hired if they have been convicted of an offense
  listed in District regulations, and each facility maintains
  background checks documentation on each employee on the
        .
  premIses.


                   CORRECTIVE ACTION



• The United Planning Organization retained the employ of 15
  former Department of Parks and Recreation employees. All
  employee files complies with the State requirements of Criminal
  and Background History Checks"( 29 DCMR 328 ·section 328.1
  Section 4-1501.03 applicant,employee or volunteer shall submit
  to a criminal background check by me.ans of fingerprint and
  National Criminal Information Center checks .conducted by the
  Mayor and the FBI.

• Section 327.1 (cJdocumentation and results of the criminal and
  background checks are. maintained on the facility pre.mises In
  accordance with state regUlations .
                                                                                    Page 4 of 11




                               CONCURRANCE#2


•   All drivers have meet Federaldriver~specific requirements




                               CORRECTIVE ACTION



•   None of the 15 drivers employed by the Department of Parks and Recreations was hired
    by or transferred toThe United Planning Organization in its. acquisition ofthe six day
    care sites
                                                                             Page 5 of 11




                              CONCURRENCE #3



   • All unsafe materials and equipment are stored in locked areas ()utof the
     ,reach of children, All necessary-repairsareaddressed in a timelymahner, all
      unsafec~mditionsareaddressed ' aIid all facilities meet licensing
      requirements.



                                Corrective Action

Atlantic Terrace:

    • 	 Cleaning and sanitizing .supplies with warning.labels are stored in lockea
        closet in a kitchen not accessible to children.
    • 	 Fire extinguisher and coffeepot removed ftomcounterin the kitchen not
        accessible to children. (Appendix. A Photograph2)
    • 	 Railroad ties and the bolts have been hammered down and corrected to
        prevent tripping hazard (Appendix A Photograph 3)
   .• Electrical outlets in all Classrooms ..have protectiVe closures (photograph
        included)
    • 	 Diapering area has been removed fromare.a where children play(photograph
        included)
    • 	 Expired medication has been removed from alL first aid kits,andkits have
        been restocked (invoice included)
    • 	 Glue Traps have been removed from under sink in children's bathroom
        (photograph includ~d)
    • 	 Building managemenffixed and replaced water stained ceiling tiles
    • 	 Child Development Facility License, Certificate of Occupancy and fire
        inspections approyalcertificate .,' renewed and 'approved (Copies included)
    • 	 Center Painted April 2, 2010




                                         1

                                                                              Page 6 of 11




                                Benning Park:




• 	 Facility has emergency lamps in the event of a power failure. (picture
    included)
• 	 Fire extinguishers have been inspected .(Appendix A Photograph 6)
• 	 Evacuation routed posted. (copy included)
• 	 Electrical out accessible to children in classroom has protective .c1osure.
• 	 First aid kit have been restocked and expired medication discarded
• 	 Child Development license renewed.
• 	 Certificate of Occupancy includes address
• 	 Fire inspection certificate expires February 4,2011




                                        2
                                                                        Page 7 of 11




                                Edgewood~ 





• 	 Cleaning and sanitizing .supplies with warning labels are stored in locked
    under sink kitchen cabinet.
• 	 Playground that contains play equipment with broken pieces of sharp plastic
    is not .used by the children of United Planning Organization Early Care and
    EducationCenter is labeled out of order.
• 	 Playground with exposed wires and copper tubing on the perimeter of
    playground is not used by. the United Planning Organization Early Care and
    Education Center. This property belongs to another apartment complex.
    (Appendix APhotographs .8 & 9)(picture included)
• 	 Electrical outlets in three classrooms are covered with protective.dosures.
• 	 Glue ·traps have been removed ftom under kitchen sink and behind toilet in
    children '8 .bathroom.
• 	 Center being painted 8-1.6-10




                                     3

                                                                          Page 8 of 11




                                  Randall




• 	 Facility has emergency lamp in the event of a power failure.
• 	 Smoke Detector was placed in classroom.
• 	 Locked was placed on gate that led to area thathoused air conditioning
    equipment.
• 	 Evacuation routes are posted.
• 	 Electrical outlets in both classrooms have protective closures.
• 	 Certificate of occupancy have been changed to list the correct address.
• 	 Center painted 4/2/2010




                                      4

                                                                         Page 9 of 11




                                 Paradise




• 	 Cleaning and sanitizing supplies with warning labels are stored in locked
    closet
• 	 Two six emergency lighting fixtures that.were not working have been
    repaired.
• 	 Two fire extinguishers have been inspected.
• 	 Dixon Extermination Company provides .exterminations services to the
    center monthly ants are eliminated.
• 	 Playground equipment with exposed protruding. screw repaired to prevent
    possible injury to children.
• 	 Electrical outIetshave protective closures.
• 	 First aid kit have been restocked and expired medications with discarded.
• 	 Glue traps have been removed from classrooms closets .and discarded.
    (Appendix A photograph 11)
• 	 Center painted 12/28/09




                                     5

                                                                                       Page 10 of 11




                                      Facility Security




• 	 Facility Security: State regulations (29DCMR § 367) each facility with on outdoor play
    area on the premises enclose the space with a fence. or natural barriers that is at least 48
    inches high with a space no larger than 3.5 inches between its bottom edge and the
    ground and designed to discourage climbing.



• 	 United Planning Organization manages the six .early childhood center. acquired from
    District of Columbia Parks and Recreations. These properties are lease from various
    realty agencies. The Organization is ill lease negations with the property's management
    to replace the playground fences and in the procurement process to attain a fencing
    company to install playground fences· which will to adhere to federal and .state
    requirements.




                                             6

                                                                                    Page 11 of 11




                                 NONOCCURRENCE 





• 	 Atlantic Gardens: Center closed on June 4, 2010 11lergedwith AtlanticTerraceaue to
    inferior facility environments
• 	 Barry Farms: Center. never transterredto UP011lanage11lent by the District ofC~lumbia
• 	 Kenilworth Parkside:. Center closed for capital improvements renovations by the District
    ofColu11lbia October2, 2009
• 	 Rosedale: Center ·closed for capital improvements renovations by <the ·District of
    Coltufibia 8/09
• 	 Watkins: Center housed in District of Columbia Public School closed prior to the start of
    the public schools
    8121/09 in District of Columbia.
• 	 Edgewood: Picture in Appendix A,Photograph 8,9, with. exposed" wires and copper
    tubing on the perimeter is not the playground unutilized· by the United Planning
    Organization "Child. Development Center.




                                            1

